CERTIFICATE OF SERVICE
NO. TBD
Tommy Sharp, Interim Warden
Petitioner(s)
v.
Roderick L. Smith
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the TOMMY
SHARP PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Emma Victoria Rolls
Office of the Federal Public Defender
Capital Habeas Unit
215 Dean A. McGee Avenue, Suite 707
Oklahoma City, OK 73102
(405) 609-5975
emma_rolls@fd.org
Counsel for Roderick L. Smith

Lucas DeDeus

March 2, 2020
SCP Tracking: Hunt-Oklahoma Office of the Attorney General-Cover White

